                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13050059                                                                           Page 1 of 1



                 This case was opened as an independent reexamination of allegations of research misconduct
         by a graduate student1 with additional documentation that was not previously provided to us. The
         previous case2 closed because of insufficient evidence to support NSF jurisdiction.

                 Much of the additional documentation we received purported to demonstrate that research
         misconduct had occurred. But it did not sufficiently demonstrate that the alleged misconduct took
         place within an NSF program. The student conducted the experimental work primarily under one
         advisor3 who has never been a PI or coPI on an NSF award. The student changed advisors to
         complete his dissertation and publish at least two papers that are the focus of the misconduct
         allegations. The new advisors4 were affiliated with an NSF-funded center; 5 however, because the
         advisors had funds from other, non-federal sources and did not claim the student on their annual
         reports, a definitive nexus with NSF could not be established. Although we were told that the
         student used NSF-funded resources in faculty colleagues' labs,6 the NSF awards that established
         those resources expired several years ago with title passing to the university. 7 Thus, the facts do not
         provide sufficient support for a nexus with NSF. Absent a nexus to NSF funding, the research
         misconduct allegations are not within our purview.

                   This case is closed.




NSF OIG Form 2 (11/02)
